No. ______
In the

Supreme Court of the United States
__________________
SAMSON PRIMM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
JAMES R. WILLIS, ESQ.
Counsel of Record
CLARISSA A. SMITH, ESQ.
614 West Superior Avenue
Suite 1144
Cleveland, OH 44113
(216) 523-1100
(216) 861-4161 (Fax)
jrwillis-barrister@sbcglobal.net
Attorneys for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
I.

WHETHER ONE WHO HAS THE REQUISITE
STANDING TO MOVE TO SUPPRESS BASED
ON CONTENTIONS, WHICH IF VALIDATED
SHOW HIS FOURTH AMENDMENT RIGHTS
WERE VIOLATED, MUST FIRST PROVE HIS
POSSESSION WAS LAWFUL?

II.

WHEN THE APPEALS COURT RULES, IN A
FORFEITURE CASE THEN ON APPEAL
THAT THE APPELLANT, HAS TITLE III
STANDING: DOES THAT RULING BECOME
“THE LAW OF THE CASE” AND AS SUCH
CAN IT BE IGNORED BY THE DISTRICT
COURT (FOLLOWING A REMAND) WITH
IMPUNITY?

III.

WHETHER, GIVEN THE ONUS IS ON THE
GOVERNMENT
TO
PROVE
FORFEITABILITY, AND THE LAWFULNESS
OF ANY AND ALL SEARCHES AND
SEIZURES, CAN THE DISTRICT COURT, AS
A CONDITION PRECEDENT TO PROVIDING
THE CLAIMANT A HEARING ON HIS
MOTION TO SUPPRESS, REQUIRE HIM TO
SURRENDER HIS FIFTH AMENDMENT
RIGHTS.

ii
PARTIES TO THE PROCEEDING
Petitioner SAMSON PRIMM was the Claimant Appellant below. Also below, listed as Defendants were:
$107,900.00 U.S. CURRENCY SEIZED ON JUNE 17,
2016; $57,999.00 U.S. CURRENCY SEIZED ON
AUGUST 18, 2016; $99,500.00 U.S. CURRENCY
SEIZED ON MARCH 20, 2016.
Respondent UNITED STATES OF AMERICA was
Plaintiff - Appellee below.
STATEMENT OF RELATED PROCEEDINGS
There are no related cases or proceedings that
Counsel is aware of. This case involves three (3)
isolated searches - - two (2) in Cuyahoga County, Ohio
and the other in Lorain County, Ohio.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE GROUNDS ON WHICH
THE JURISDICTION OF THIS COURT IS
INVOKED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 4
STATEMENT OF THE FACTS. . . . . . . . . . . . . . . . . 7
ARGUMENTS RELIED ON FOR ALLOWANCE
OF WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
ARGUMENT NO. I:
THE GRANT OF A MOTION FOR SUMMARY
JUDGMENT, IN A FORFEITURE CASE, FOR
THE LACK OF TITLE III STANDING,
BECAUSE OF THE CLAIMANT’S EXERCISE
OF HIS FIFTH AMENDMENT RIGHTS AND
FOR A FAILURE TO PROVE LAWFUL
POSSESSION, CANNOT BE DEFENDED IN
LAW, LOGIC OR COMMONSENSE. . . . . . . . . 13

iv
ARGUMENT NO. II:
GIVEN
THE
COURT
MADE
THE
CATEGORICAL FINDING THAT SAMSON
PRIMM INDEED HAD TITLE III STANDING,
WHICH WAS SUFFICIENT TO SURVIVE THE
GOVERNMENT’S CHALLENGE AND INDEED
SAID SO, THE CONCLUSION THAT WHEN
THAT STANDING WAS CHALLENGED IN A
MOTION FOR SUMMARY JUDGMENT IT
WAS DEEMED TO BE INSUFFICIENT,
SIMPLY PUT CANNOT SURVIVE
MEANINGFUL SCRUTINY. . . . . . . . . . . . . . . . 16
ARGUMENT NO. III:
GIVEN THE SUPREME COURT HAS NOTED
IT IS, AS IT SURELY WOULD BE, AN “. . .
INTOLERABLE THING THAT ONE
CONSTITUTIONAL RIGHT [HERE THE
FOURTH AMENDMENT] SHOULD HAVE TO
BE SURRENDERED IN ORDER TO ASSERT
ANOTHER [I.E., THE FOURTH
AMENDMENT]” (SIMMONS V. UNITED
STATES, 390 U.S. 377, 394 [1968]), SURELY
SOMETHING IS WRONG WITH THAT
PICTURE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

v
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit, No. 184042
(November 6, 2019). . . . . . . . . . . . App. 1
Appendix B Memorandum of Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division, No. 1:16 CV 2422
(September 20, 2018) . . . . . . . . . App. 13
Appendix C Memorandum of Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division, No. 1:16 CV 2422
(May 23, 2018) . . . . . . . . . . . . . . App. 35
Appendix D Opinion in the United States Court of
Appeals for the Sixth Circuit, No. 173436
(October 25, 2017) . . . . . . . . . . . . App. 41
Appendix E Memorandum of Opinion and Order in
the United States District Court
Northern District of Ohio, Eastern
Division, No. 1:16 CV 2422
(January 5, 2017) . . . . . . . . . . . . App. 46

vi
TABLE OF AUTHORITIES
Austin v. United States,
509 U.S. 602 (1993). . . . . . . . . . . . . . . . . . . . . . . 14
Beck v. Ohio,
376 U.S. 89 (1964). . . . . . . . . . . . . . . . . . . . . . . . 10
Braxton v. Palmigiano,
435 U.S. 308 (1976). . . . . . . . . . . . . . . . . . . . . . . 19
Mapp v. Ohio,
367 U.S. 643 (1961). . . . . . . . . . . . . . . . . . . . . . . 10
Northern Pacific Co. v. Lewis,
162 U.S. 366 (1896). . . . . . . . . . . . . . . . . . . . . . . 12
Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133 (2000). . . . . . . . . . . . . . . . . . . . . . . . 4
Scarbeck v. United States,
317 F.2d 546 (D.C. Cir. 1962). . . . . . . . . . . . . . . 14
Simmons v. United States,
390 U.S. 377 (1968). . . . . . . . . . . . . . . . . . . . . . . 18
State v. Jacobs,
137 Ohio St. 363 (1940) . . . . . . . . . . . . . . . . . . . . 5
One 1958 Plymouth Sedan v. Pennsylvania,
380 U.S. 363 (1965). . . . . . . . . . . . . . . . . . 5, 11, 16
United States v. All Funds on Deposit, etc.,
783 F.3d 607 (7th Cir. 2015). . . . . . . . . . . . . . . . . 9
United States v. Real Property Known as Rural
Route 1, Box 137- B. Cutler Ohio,
24 F.3d 845 (6th Cir. 1994). . . . . . . . . . . . . . . . . 13

vii
United States v. The Residence and Attached
Garage of Anthony Accardo,
603 F.2d 1231 (7th Cir. 1979). . . . . . . . . . 5, 11, 19
United States v. $31,000.00 in U.S. Currency,
872 F.3d 342 (6th Cir. 2017). . . . . . . . . . 6, 8, 9, 12
United States v. $31,000.00 in U.S. Currency,
774 F. Appx 288 (6th Cir. 2019) . . . . . . . . . . . . . . 8
United States v. $99,500.00 in U.S. Currency,
699 F. Appx. 542 (6th Cir. 2017) . . . . . . . . passim
United States v. Currency $267,961.07,
916 F.2d 1104 (6th Cir. 1990). . . . . . . . . . . . . . . . .
United States v. $304,980.00 in U.S. Currency,
732 F.3d 812 (7th Cir. 2013). . . . . . . . . . . . . . . . . 9
United States v. $506,231.00 in U.S. Currency,
123 F.3d 442 (7th Cir. 1976). . . . . . . . . . . . . 11, 19
United States v. U.S. Currency,
626 F.2d 11 (6th Cir. 1980). . . . . . . . . . . . . . . . . 19
OTHER RELEVANT RULES AND AUTHORITIES
Amendment IV, U.S. Constitution . . . . . . . . . passim
Amendment V, U.S. Constitution . . . . . . . . . . passim
Amendment VI, U.S. Constitution . . . . . . . . . . . . 2, 3
Amendment XIV, U.S. Constitution . . . . . . . . . . . 2, 3
Revised Code of Ohio, § 2935.23 . . . . . . . . . . . . . . . . 5
Rule 26(b)(1), Ohio Rules of Criminal Procedure . . 14
Rule 26(b)(5), Ohio Rules of Criminal Procedure . . 14

viii
Title 18 United States Code, § 983 . . . . . . . . . . . . . 10
Title 18 United States Code, § 983(a)(4)(A) . . . . . . 10
Title 28 United States Code, § 1254(1) . . . . . . . . . . . 1

1
To the Honorable, the Chief Justice
and Associate Justices of
The Supreme Court of the United States:
The Petitioner, Samson Primm, respectfully prays
that a Writ of Certiorari be issued to review the
judgment of the Sixth Circuit Court of Appeals,
originally filed in this case on November 6, 2019.
OPINIONS BELOW
United States v. $99,500.00, et al, the Opinion
centralized in this Petition, is reported as 2019 WL
578347, is Appendix “A” herein. Appendix “B,” the
Memorandum and Order of the District Court, is
reported as 339 F. Supp. 3d 690 (2018). Appendix
“C” shows United States v. $99,500.00 in U.S.
Currency, 2018 WL 2336909. Appendix “D” herein
is also report for the District Court as 699 F. Appx 542
(6th Cir. 2017). Lastly, we have 2017 WL 57295
attached herein as Appendix “E.”
STATEMENT OF THE GROUNDS ON
WHICH THE JURISDICTION
OF THIS COURT IS INVOKED
The judgment of the Federal Court of Appeals was
rendered on November 6, 2019. This Petition is being
seasonably filed under favor of 28 U.S.C. § 1254(1).
With this being so, it follows the due date of
February 4, 2020 is being met.

2
CONSTITUTIONAL AND
STATUTORY PROVISIONS
The principle provisions of the United States
Constitution involved in this case are the search and
seizure clause of the Fourth Amendment and the selfincriminating clause of the Fifth Amendment. Likewise
relevant here is the due process clauses of the Sixth
and Fourteenth Amendments. The pertinent text of
these reads as follows:
AMENDMENT IV:
The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be
violated, and no warrants shall issue, but upon
probable cause, supported by oath or
affirmation, and particularly describing the
place to be searched, and the persons or things
to be seized.
AMENDMENT V:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall

3
private property be taken for public use, without
just compensation.
AMENDMENT VI:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the state and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against him; to
have compulsory process for obtaining witnesses
in his favor, and to have the assistance of
counsel for his defense.
AMENDMENT XIV:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law; nor deny to any person within its
jurisdiction the equal protection of the laws.

4
STATEMENT OF THE CASE
Here, the facts will show the Government contended
in the District Court that simply because the Petitioner
here exercised his Fifth Amendment right of silence
with reference to certain Special Interrogatories and to
the various requests for documents. He forfeited his
right to even contest the seizure of this property but
the property as well. The warrantless searches were
made in connection with various traffic arrests. For
sure, as we contended in the District Court, as we do
here, that any one reading the Motion for Summary
Judgment, would be impressed with its author’s utter
gall. This because it gave off the flawed impression
(arguably adopted by the District Court) that Appeals
Court could (as it did) ignore the edict that barred them
making credibility determinations. As they saw it, this
would forbid the Court from weighing the evidence in
dealing with Motions for Summary Judgment. See
Reeves v. Sanderson Plumbing Products, Inc., 530
U.S. 133, at 150 (2000). This case thus tells us the
conclusory allegations that cluttered the Motion and
the Government’s arguments made in therein should
have been rejected.
Also, it is almost unbelievable that the trial Court
could (as it would) use as a Discovery sanction the
outright dismissal of a forfeiture claim - - as was done
here. Indeed, this was done (arbitrarily) here. This is so
despite the fact that at all times, even before the
Government literally muscled these seizures away from
the various State Courts, that each of them literally
passed through. This follows given all seizures made
here were in the name of our State. Thus, by that act

5
alone, it is undeniable that jurisdiction had already
automatically vested in the Courts of the State of Ohio.
See Revised Code of Ohio, § 2935.23 and State v.
Jacobs, 137 Ohio St. 363 (1940).
Likewise, ignored by the Courts below is the fact
that nowhere is it written, indeed anywhere, that when
Congress enacted CAFRA it literally trumped the
taking clause of the Fifth Amendment, the prohibition
against illegal searches and seizures of the Fourth
Amendment, the right to challenge illegal searches and
seizures in the District Courts. And, we know as a fact
the Supreme Court had decreed. See One 1958
Plymouth Sedan v. Pennsylvania, 380 U.S. 363
(1965). Then, there is the wisdom one gets from the
irrefutable thesis that the Government cannot seize
private property and compel the person from whim it
was taken to prove lawful possession. United States
v. The Residence and Attached Garage of Anthony
Accardo, 603 F.2d 1231 (7th Cir. 1979).
Likewise, here we have the awesome fact that the
Sixth Circuit, early on, had categorically found that
Samson Primm had the requisite standing needed to
make the claim for his seized property. It did so when
it reversed the previous case involving Mr. Primm.
Indeed that case is formally reported as United States
v. $99,500.00 in U.S. Currency, 699 F. Appx 542 (6th
Cir. 2017). See Appendix “B” at App. p. 41.
Here, of course, as a part of its all-out onslaught,
indeed in that: where there is a will, there surely is a
way, scenario the Government ultimately prevailed
here. Indeed, the fact that the Government would
argue and even convinced the District Court this time

6
around, as it did, that Primm lacked the standing
required could overcome what we were contending was
“the law of the case,” was a shock to us. In taking that
position, the fact that it was something, off handedly
said by the Court, that was being relied on simply does
not make sense. Here, reference is to what clearly was
a dictum1 expressed in United States v. $31,000.00 in
U.S. Currency, 872 F.3d 342 (6th Cir. 2017), despite
being off handed its effect was just short of being
amazing. Yet that nonsense prevailed here. Hopefully
just for now. This follows because it has to be that one
does not have to prove the type of standing require to
contest a forfeiture in order to complain they were
victimized by an illegal search. Thus, it hardly makes
sense the Sixth Circuit could simply reject its previous
finding (made in its first opinion) that Samson Primm
did in fact have the requisite Title III Standing “at the
pleading stage”. Simply put, in the opinion referred to
– that is the first opinion in this case, here is what the
court says but not at any other stage - - which is the
effect of the Ruling here made. Be all that as it may, in
its first Opinion in this case here is what the Court
said:

1

Here, reference is to this the following remark, which if left
unsaid, as should have bene the case, makes no sense at all. Here,
it was unnecessarily said: We have no doubt that the lawyers of
the United States Attorney’s Offices within the Sixth Circuit have
the capacity to draft useful interrogatories that will either confirm
a claimant’s interest in the res or expose the futility of the claim.
They do not need our hand on the scale. United States v.
$31,000.00 in U.S. Currency, 872 F.3d 342, 334-335 (6th Cir.
2017).

7
For Article III standing in civil forfeiture cases,
‘a claimant must have a colorable ownership,
possessory or security interest in at least a
portion of the defendant property’. . . However,
as a matter of first impression, this court held
in $31,000.00 in U.S. Currency that a
verified claim of ownership is sufficient to
satisfy Article III at the pleading stage. . . .
Thus, Primm’s claim asserting sole
ownership of the cash that is the subject of
this forfeiture action sufficiently alleged
Article III standing.
United States v. $99, 500.00 U.S. Currency, 699 F.
Appx 542 (2017). See Appendix D, at p. App. 44.
STATEMENT OF THE FACTS
Let’s be very clear here, the District Court’s various
Orders made below, those which caused us to lodge a
second appeal is what causes us to be here. Indeed,
what is exposed here is still another all-out effort by
the Government to avoid being required to prove
anything. Indeed, not merely that it lacks any proof
whatsoever that the property seized by local law
enforcement officers (here in the name of the State
of Ohio), can be forfeited to the Government with
impunity. The sole purpose being, in our judgment, to
enrich, both, their coffers. Our belief here is whenever
this case gets before a fact finder, certain things will be
clear. One being that it is not so, as these law
enforcement officers seems clearly to believe, that it is
a fact that the Samson Primms of the world have no
rights the Government and its minions are bound to

8
respect. Then, it will be made clear that in this
situation, their belief this is so, is simply wrong.
Granted, the ease with what they have so far been
able to defy our Courts, is actually unreal. This
reference is to the fact that while the Sixth Circuit, as
far back as 2017, sought to make it clear to those of us
who were constantly getting beat up by the attorneys
in our District, who seem clearly to believe that “the
taking clause” of the Fifth Amendment and the Fourth
Amendment itself, could no longer be, and would no
longer be, ignored in our Circuit. For sure, their
warped belief had been the Government could seize
private property, with or without probable cause to do
so, and compel the person from whom it was seized to
prove lawful possession. Indeed, despite our
contentions to the contrary, this argument had become
a staple in these situations.
Yet, despite the Opinions in United States v.
$31,000.00 in U.S. Currency, 872 F.3d 342 (6th Cir.
2017), and that Court’s earlier Opinion in this case.
See Appendix “A.” Thus, it is now clear the
Government obviously still believed there had to be a
way they could get around having to prove anything.
This warped belief came to fruition when the Sixth
Circuit reversed its stance in United States v.
$31,000.00 in U.S. Currency. It was then proclaimed
these Claimants had to prove lawful possession to have
Title III standing again. See United States v.
$31,000.00 in U.S. Currency, 774 F. Appx 288, at
292-293 (6th Cir. 2019). Thus, as the Appeal Record
here shows, obviously spurred on by certain
nonsensical rulings conjured up for the District Court,

9
it has somehow convinced itself Primm really does not
have standing. And because this was so, his assertion
of his Fifth Amendment right to questions put to him
(likewise in certain Special Interrogatories), they could
not only void his claims, his assertions of the Fifth
Amendment empowered it to enter judgment for the
Government. For sure, we dispute that it was proper to
do so.
Indeed, the Court (the same Judge that did so in the
$31,000.00 case being referred to on appeal here), the
Court there resorted to the same nonsensical rhetorical
nonsense. There, as was done here, it ignored what to
us seems most clear. Our belief is that once this Court
found that Samson Primm had the requisite standing
in the previous case, that fact became “the law of the
case.” To be sure, the Court below, in another segment
of nonsense, wrote for this Court that our belief that
the Sixth Circuit’s decision (- - on the standing issue, as
it was postured in its decision in “$99,500.00 in U.S.
Currency,” at 699 F. Appx at 643), was the “law of
the case,” was simply misplaced. See Appendix D, at
App. p. 44.
If nothing else, our belief is that this Court’s
previous standing ruling, truly sufficed to establish the
colorable interest in the property under siege here. For
sure, this follows for the purposes of Article III
standing. See e.g., United States v. $304,980.00 in
U.S. Currency, 732 F.3d 812, 818 (7th Cir. 2013) and
United States v. All Funds on Deposit, etc., 783
F.3d 607 (7th Cir. 2015). This follows all the more so
given we already know this is so, indeed because of the
“law of the case” doctrine itself. For if it works at all,

10
surely it works in a situation like we have. Indeed,
because we are dealing with the same issue - - i.e., Title
III Standing. For, how can it be that Title III Standing
existed in the pleading stage, as the Court held, but not
when the issue is summary judgment?
ARGUMENTS RELIED ON FOR
ALLOWANCE OF WRIT
The Civil Asset Forfeiture Reform Act of 2000
(known as CAFRA) and 18 U.S.C., §983, applied to all
In Rem forfeiture actions, which this is, that were
lodged after August 23, 2000. These actions are also
governed by the Supplemental Rules. See 18 U.S.C.
§ 983(a)(4)(A), which permitted the Appellant to claim
his interest here in all his property that was seized in
these searches. Granted, the Rules allow the
Government at any time after the Claim was filed to
file submit what is described as Special Interrogatories.
And, it could move to strike the claim which was done.
Indeed, the Government in a previous Motion, which
was rendered against us by the District Court, this
Court in the appeal that was taken actually ruled (in
our favor) that Samson Primm had the requisite
standing to challenge the forfeiture. See United States
v. $99,500 in U.S. Currency, 699 F. Appx 542 (6th
Cir. 2017). Actually, this ruling is “the law of the case”
- - this case. And, of course, the Supreme Court had
already made it clear, as had the Fourth Amendment
itself that one with standing to lodge a Motion for the
Return of Illegally Seized Property (see Mapp v. Ohio,
367 U.S. 643 [1961] and Beck v. Ohio, 376 U.S. 89
[1964]), could also avail themselves of that tactic in

11
forfeiture cases. See One 1958 Plymouth Sedan v.
Pennsylvania, 380 U.S. 170 (1965).
Of course, the police around here, especially when
dealing with people from Cleveland’s hoods are
convince that most of its inhabitants have no rights the
Cleveland police are bound to respect and this is
especially so since they truly believe anyone of them
found in possession of a large sum of money or other
valuables and the like, fall under the ambit of their
false beliefs that the Government can seize their
valuables and then compel them to prove lawful
possession. See United States v. The Residence and
Attached Garage of Anthony Accardo, 603 F.2d
1231 (7th Cir. 1979), and its lineal descendant, United
States v. $506,231.00 in U.S. Currency, 123 F.3d
442 (7th Cir. 1976). Indeed, what is worse here is the
Government seems clearly to have somehow been able
to convince the Court below that this Court’s ruling
that Samson Primm has “Title III” standing (in United
States v. $99,500.00 in U.S. Currency, at 543), for us
was some sort of mirage. For sure, it was not, as we are
contending, “the law of the case” - - of this case. For the
Court to make that argument is the type of audacity up
with which we, and surely this Court, will not put.
In taking this position an aspect of our thesis here
flows from what we believe is the fact that the District
Court Judge here adjudicated in these forfeitures cases
is not the Claimant’s right to the property, but the
Government’s entitlement to it. And, as to this, let’s be
clear that possession, even if it were naked and unclad
(clearly not the case here) was at least some prima
facia evidence of some kind of rightful ownership or

12
title. See Northern Pacific Co. v. Lewis, 162 U.S.
366, at 372 (1896). Also, on longer should we believe,
because of the finding made here, that:
With respect to Article III standing, a claimant
must demonstrate a legally cognizable interest
in the defendant property. A property interest
less than ownership, such as a possessory
interest, in sufficient to create standing.
United States v. Currency $267,961.07, 916 F.2d 1104,
at 1107 (6th Cir. 1990).
Indeed, this must be so because unless this Court
rejects the thesis expressed by, and deemed dispositive
here, the Title III standing the Sixth Circuit relied on
in reversing this case the first time it reviewed this
case, indeed when it credited the thinking expressed in
United States v. $31,000.00 U.S. Currency, 872 F.3d
342, at 351 (6th Cir. 2017).

13
ARGUMENT NO. I:
THE GRANT OF A MOTION FOR
SUMMARY
JUDGMENT,
IN
A
FORFEITURE CASE, FOR THE LACK OF
TITLE III STANDING, BECAUSE OF THE
CLAIMANT’S EXERCISE OF HIS FIFTH
AMENDMENT RIGHTS AND FOR A
FAILURE TO PROVE LAWFUL
POSSESSION, CANNOT BE DEFENDED IN
LAW, LOGIC OR COMMONSENSE.
The Government will be making the argument that
the invocation of Claimant’s Fifth Amendment
privilege leaves the Government’s evidence
unchallenged, and further asserts the Court should
draw an adverse inference from the assertion of the
privilege. First, the fact that the Claimant relies on his
Fifth Amendment privilege does not help the
Government. This is because the facts relied on in
support of the Motion are insufficient to carry its
burden of proof. Further, it cannot even be disputed
that all reasonable inferences are to be constructed in
favor of the nonmoving party. Thus, the Court must
assume that while the assertion of the Fifth
Amendment privilege may provide some support for the
concession that the Defendant currency came from an
other than lawful source, the evidence is insufficient to
conclude it came from drugs. Further, the Government
is not entitled to any adverse inferences from
Claimant’s assertion of his Fifth Amendment privilege.
Here, as well, our Court in United States v. Real
Property Known as Rural Route 1, Box 137- B.
Cutler Ohio, 24 F.3d 845 (6th Cir. 1994), clearly and

14
soundly rejected the use of an adverse inference
instruction in a civil forfeiture action. In doing so, it
noted that: the U.S. Supreme Court’s forfeiture action
ruling in Austin v. United States, 509 U.S. 602
(1993) should be viewed in the same light as a
traditional forfeiture proceeding. Further, since this
matter had yet to reach the trial level, the use of an
adverse inference on this Summary Judgment Motion
would be inappropriate.
Additionally, as has been repeated a number of
times throughout this pleading, in a Summary
Judgment Motion, all inferences drawn from the
underlying facts must be viewed in the light most
favorable to the party opposing the Motion. See Austin
v. United States, 509 U.S. 602 (1993). If then the
Court is inclined to reject our argument and find that
an adverse inference is created by Claimant’s assertion
of his Fifth Amendment rights is appropriate, still the
Court must draw those inferences that are favorable in
the light most favorable to Claimant. First off, let’s be
clear here. As we read Rule 26(b)(1) & (b)(5), it limits
the scope of discovery to matters “not privileged.” This
we read to mean there can be no provision in our Rules
which authorizes this Court to sanction a party for
asserting a valid claim of privilege. The point here that
the Government misses (in its all-out zeal to prevail
counsel to protect these agents from being held
accountable for their misdeeds), has really blinded
them from reality. Simply put, the reality here is that
“federal employees are informed by statutes . . . [and
the like] as to what they can and cannot do in
connection with their employment.” Scarbeck v.
United States, 317 F. 2d 546, 556 (D.C. Cir. 1962).

15
The upshot of this unassailable point is that it shows
the Government has no right to obtain information
from the Claimant that is protected by his privilege
against self- incrimination. With this being so, the
Claimant did not violate any Discovery Rules when he
asserted the Fifth Amendment in response to these
interrogatories. So postured, the Court lacks any power
to sanction him for his refusal to be badgered by the
Government.
Among the other issues that must be resolved
(hence barring summary judgment here) include:
(a) whether the forfeitures sought would violate the
excessive fines clause of the Eighth Amendment and
the taking clause of the Fifth Amendment; (b) whether
the various seizures were lawfully made; (c) whether
any of these monies can be connected to an offense - indeed a drug offense; (d) whether in the absence of any
proof, whatsoever, that any of these monies were
connected, even slightly to any drug offense (even
slightly, or otherwise). Here, as well, the Court is
constrained to put the Government to its proof. This
follows given the Sixth Circuit has already ruled (with
reference to these monies) that the Claimant has all
the standing required;2 and (e) we know that whether
the original seizure made here by the DEA, as
distinguished from the State officers was lawful, is
clear enough.

2

United States v. $99,500.00 in U.S. Currency, 699 F. Appx
542 (6th Cir. 2017). See Appendix D, App. p. 41.

16
ARGUMENT NO. II:
GIVEN THE COURT MADE THE
CATEGORICAL FINDING THAT SAMSON
PRIMM INDEED HAD TITLE III
STANDING, WHICH WAS SUFFICIENT TO
SURVIVE THE GOVERNMENT’S
CHALLENGE AND INDEED SAID SO, THE
CONCLUSION THAT WHEN THAT
STANDING WAS CHALLENGED IN A
MOTION FOR SUMMARY JUDGMENT IT
WAS DEEMED TO BE INSUFFICIENT,
SIMPLY PUT CANNOT SURVIVE
MEANINGFUL SCRUTINY.
Let’s be perfectly clear here, again “the law of the
case doctrine” is significant as is the Sixth Circuit’s
Opinion in United States v. $99,500 in U.S.
Currency, 699 F. Appx 542 (6th Cir. 2017), which we
dub $99,500 in U.S. Currency (No É). Also, there is no
dispute that on the issues related to the Claimant’s
standing they have been resolved in his favor. And,
while counsel would believe that we lack any right of
silence here, although the Constitution provides
otherwise, their negative argument does not work here.
Thus, while it appears the Government believes that
Congress, when it enacted CAFRA, thought otherwise,
their negative arguments fail. For when read in the
light of other Legislation, and the “Rules of Procedure”
literally are trumped not only by the “taking” clause of
the Fifth Amendment and its right of silence, but the
Fourth Amendment; as well as, by the Supreme Court’s
pronouncement in One 1958 Plymouth Sedan v.
Pennsylvania, 380 U.S. 693 (1965), as well. Indeed,

17
when it did that, if counsel-opposite is right, it must be
that the Government is really saying, not only, must a
person whose property was seized from him actually
prove he has standing (which was done here), he must
also prove lawful possession.
Of course, aside from the fact that with the standing
issues having already been resolved against the
Government, and the Constitution’s prohibition
expressed in the Fifth Amendment’s taking clause, the
right of silence in that same amendment; as well as,
the Fourth Amendment’s illegal search prohibitions
inapplicably here. Clearly then, the question then is:
can what the Government is arguing possibly be right?
Of course, that simply cannot be so.
What truly magnifies the incomprehensibleness of
the Government’s stance here, especially when read in
light of the Court’s finding that Primm did in fact have
Title III Standing is these quotes from its first Opinion
in this matter. Here, the Court wrote in its Opinion,
Appendix “A,” fn 2, at App. p. 9:
Although Primm makes a cursory argument that
the facts relied upon by the United States in
support of its motion for summary judgment on
the issue of standing were insufficient to carry
its burden of proof, we do not reach this issue, as
Primm never met this threshold burden of
establishing Article III standing.
The fact that this footnote, when read in light of this
quote, adds to our confusion, shows the Court seems to
clearly have been shooting from the hip, otherwise, it
would have explained what it meant when it wrote on

18
the same page as the above quote, that “. . . although
the district court struck Primm’s conclusory assertions
of ownership, the district court did not draw any
adverse inferences as a result of Primm’s invocation of
his right against self-incrimination.” How can it be that
we are supposed to understand what the Court would
have us take from those quotes?
ARGUMENT NO. III:
GIVEN THE SUPREME COURT HAS
NOTED IT IS, AS IT SURELY WOULD BE,
AN “. . . INTOLERABLE THING THAT ONE
CONSTITUTIONAL RIGHT [HERE THE
FOURTH AMENDMENT] SHOULD HAVE
TO BE SURRENDERED IN ORDER TO
ASSERT ANOTHER [I.E., THE FOURTH
AMENDMENT]” (SIMMONS V. UNITED
STATES, 390 U.S. 377, 394 [1968]), SURELY
SOMETHING IS WRONG WITH THAT
PICTURE.
Distilled, the facts here show, that despite the facts
that the Government in all of its previous filings in the
various federal Courts, and indeed in the State Courts
which have addressed these various issues, all made
necessary because the various seizures here were made
in different cities. Likewise, while two (2) were in
Cuyahoga County, Ohio, one (1) was in Lorain County,
Ohio. There has never been any doubt that all of the
seizures here were from Samson Primm. Indeed, in the
Appellate Brief filed in the Sixth Circuit, the
Government recounted, in boring detail, how it came
into possession of all of the property it seized from Mr.
Primm. Indeed, in its Appellate Brief, counsel’s effort

19
in doing so, while it did clutter the Record in our
judgment, was misdirected, as it will be here. This
follows because on the question of standing, which
counsel does not turn on when and how Samson Primm
acquired these assets, the law is clear. The
Government cannot seize private property and then
require the person found in possession to prove lawful
possession. See United States v. The Residence and
Attached Garage of Anthony Accardo, 603 F.2d
1237 (7th Cir.1972), and United States v.
$506,231.00 in U.S. Currency, 123 F.3d 442 (7th Cir.
1976).
So postured, our belief is that at least at the
pleading stage, the person from whom the property was
seized, especially when no other possible claimant
could even exist, that at the pleading stage, where we
surely are, the assertion of the Fifth Amendment
should be with impunity. Arguably, we suppose if that
were done at the trial stage, perhaps a negative
inference may be feasible. See Braxton v.
Palmigiano, 435 U.S. 308, 317-318 (1976). The point
here being made, at least hopefully, is that the
evidentiary stage and the pleading stage are different.
Also see United States v. U.S. Currency, 626 F.2d
11, 16 (6th Cir. 1980).
A reversal here is required.
CONCLUSION
As an aspect of the contentions here, our belief is we
had every right to assert the Fifth Amendment here.
Do understand, from our perspective, there are no
contentions even possible here, none whatsoever (not

20
even any unrealistic ones) that someone other than
Samson Primm would ever claim this property. Nor can
it be said his claims are not genuine. Also, and this is
a fact by the District Court and the Sixth Circuit seem
clearly to have ignored the fact that the statutes, which
the Government relied on in crafting these
Interrogatories, cannot possibly do what no mere
statutes could ever do - - that is, literally trump a
constitutional amendment. Yet, this is what they
would be doing if they would be doing, if they compelled
a claimant, in a forfeiture case, to deal with what
would be the “Hobson Choice” Primm faced. Simply
put, can he be asked, with impunity, to choose between
asserting his Fifth Amendment privileges against selfincrimination or forego his right to challenge the
lawfulness of the arrest and seizures here.
Respectfully submitted,
JAMES R. WILLIS, ESQ.
Counsel of Record
CLARISSA A. SMITH, ESQ.
614 West Superior Avenue, Suite 1144
Cleveland, OH 44113
(216) 523-1100
(216) 861-4161 (Fax)
jrwillis-barrister@sbcglobal.net
Attorneys for Petitioner

